<html>
<title> - BUSINESS MEETING: H.R. 5305, FDLP MODERNIZATION ACT OF 2018; AND H.R. 4631, ACCESS TO CONGRESSIONALLY MANDATED REPORTS ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
 BUSINESS MEETING: H.R. 5305, FDLP MODERNIZATION ACT OF 2018; AND H.R. 
          4631, ACCESS TO CONGRESSIONALLY MANDATED REPORTS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


                       Available on the Internet:
                         http://www.govinfo.gov
                         
                         
                         
                              _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-658                     WASHINGTON : 2018                             
 
 
                         
                         
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia



 BUSINESS MEETING: H.R. 5305, FDLP MODERNIZATION ACT OF 2018; AND H.R. 
          4631, ACCESS TO CONGRESSIONALLY MANDATED REPORTS ACT

                              ----------                              


                        THURSDAY, APRIL 12, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Loudermilk, Brady, Lofgren, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/General Counsel; Cole Felder, Deputy General 
Counsel; Dan Jarrell, Legislative Clerk; Erin McCracken, 
Communications Director; Jamie Fleet, Minority Staff Director; 
Khalil Abboud, Minority Deputy Staff Director; and Eddie 
Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's Committee meeting. A 
quorum is present, so we may proceed. The meeting record will 
remain open for 5 legislative days, so that Members may submit 
any materials they wish to be included therein.
    There are two items on the docket today: H.R. 5305, the 
Federal Depository Library Program Modernization Act of 2018; 
and H.R. 4631, the Access to Congressionally Mandated Reports 
Act. H.R. 5305, the Federal Depository Library Program 
Modernization Act of 2018, reflects the Committee's work over 
the last year, which included holding five hearings and three 
bipartisan stakeholder meetings. In examining potential reforms 
to the Federal Depository Library Program, the Committee found 
the free flow of government information is fundamental to a 
democratic society, and members of the public have a right of 
access to government information. The Federal Depository 
Library Program, or FDLP as it is commonly known, is an 
essential service by which members of the public can access 
government information. These libraries partner with the 
Government Publishing Office, and offices of the Federal 
Government to ensure that members of the public, throughout the 
United States, have effective, no-fee access to government 
information.
    Most government information currently produces an 
electronic format. As a result, 97 percent of new information 
available through FDLP is in that electronic format. The 
government has a responsibility to disseminate and provide 
permanent public access to information to ensure that members 
of the public are fully aware of the activities of their 
government, to spur innovation and research, and to promote 
good government. And the sole focus of the Superintendent of 
Documents should be on implementing programs to ensure no-fee 
access to government information.
    To that end, H.R. 5305 makes the following changes to the 
FDLP; it recognizes existence of a national collection of 
information dissemination products; it updates the types of 
depository libraries across the country that may participate in 
FDLP; it eliminates the problems with fugitive documents in the 
government; it allows the FDLP to accept work completed by the 
library community; it provides for greater transparency in the 
FDLP itself; and it removes the sales program from the purview 
of the superintendent of documents to allow the superintendent 
to focus on no-fee access to government information.
    The bill is supported by the major library associations, 
including the American Library Association, the American 
Association of Law Libraries, the Association of Research 
Libraries, and the Chief Officers of State Library Agencies.
    The second bill on the docket is H.R. 4631, the Access to 
Congressionally Mandated Reports Act. H.R. 4631 was introduced 
by our colleague, Representative Quigley from Illinois. In 
short, H.R. 4631 also amends Title 44 by requiring the 
Government Publishing Office, or GPO, to, among other things, 
establish and maintain a publicly available website containing 
copies of all congressionally mandated reports. The bill also 
directs the Office of Management and Budget to issue guidance 
to Federal agencies to assist them in submitting the reports to 
GPO.
    The bill was marked up and reported out of the Committee on 
Oversight and Government Reform earlier this year. Forty-five 
organizations support this bipartisan legislation. I am pleased 
the Committee on House Administration is acting on this good 
government bill as well.
    I will now like to recognize my colleague and the 
Committee's Ranking Member, Mr. Brady, for purposes of an 
opening statement, if he wishes.
    Mr. Brady. Thank you, Mr. Chairman, for calling this 
business meeting this morning. I support both proposals before 
us and the bipartisan work they represent.
    H.R. 5305 is good for the Government Publishing Office, it 
is good for the taxpayers, and most important to me, it is good 
for Philadelphia. I was very pleased to receive a letter from 
Temple University supporting this legislation.
    Federal Depository Library Program plays an important role 
in our democratic process and helps the American public stay 
informed and hold its government accountable. I know Committee 
staff on both sides of the aisle worked hard on this, and I 
would like to thank Khalil Abboud from my staff and Bob Tapella 
on the majority staff for all the efforts that went into this 
legislation.
    Thank you.
    H.R. 4631 is a positive step towards increasing 
transparency in how the Federal Government operates. While 
congressional committees emphasize oversight on the executive 
branch, ultimately, we all answer to the American people, and 
they have a right to know how their tax dollars are being 
spent, what is working, and what are areas that need 
improvement. These reports provide a unique insight into these 
questions though they are not always easy to find.
    This legislation will create a one-stop shop for 
congressional mandated reports, and I am proud to support it.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    The Chairman. Thank you, Mr. Brady.
    I would ask if any other Member of the Committee wishes to 
be recognized for purposes of providing an opening statement.
    Seeing none, I now call up and--oh, I am sorry.
    Ms. Lofgren. I just want to be very brief. You know, the 
House Administration Committee is a work-a-day Committee and 
doesn't always get the attention for, you know, a variety of 
reasons. But this is really significant, and I want to give 
credit to both you and Mr. Brady and all the other Committee 
members. Because in a democratic society, knowledge is power. 
And so what we are doing today is to give additional access to 
knowledge to the American public to enhance their authority. 
And I just think it is important to view this and the 
subsequent bill in that light. And I just wanted to note that 
and how significant this really is.
    And I yield back.
    The Chairman. Thank you, Ms. Lofgren, for your support and 
your comments as well.
    Any other Members?
    I now call up and lay before the Committee, H.R. 5305, the 
FDLP Modernization Act of 2018. Without objection, the bill is 
considered read. And the amendment in the nature of a 
substitute provided to each of you will serve as the base text 
and is considered open for amendment at any point.
    [The bill follows:]

          Amendment in the Nature of a Substitute to H.R. 5305


                         Offered by Mr. Harper


  Strike all after the enacting clause and insert the 
following:

SECTION 1. SHORT TITLE.

  This Act may be cited as the ``FDLP Modernization Act of 
2018''.

SEC. 2. NO-FEE PUBLIC ACCESS TO GOVERNMENT INFORMATION; REFORM OF 
                    FEDERAL DEPOSITORY LIBRARY PROGRAM.

  (a) In General.--Chapter 17 of title 44, United States Code, 
is amended to read as follows:

      ``CHAPTER 17--NO-FEE PUBLIC ACCESS TO GOVERNMENT INFORMATION


               ``subchapter a--superintendent of documents

``1701. Findings; purpose.
``1702. Superintendent of Documents.
``1703. Employees and facilities of Superintendent.
``1704. Coordination and consultation with Library of Congress.
``1705. Coordination and consultation with other legislative branch 
          officials.
``1706. Definitions.

    ``subchapter b--national collection of information dissemination 
                                products

``1721. National collection of information dissemination products.
``1722. Responsibility of offices of Government to furnish products to 
          Superintendent of Documents.
``1723. Requirements for agreements to produce or procure products.
``1724. Special requirements for electronic information dissemination 
          products.
``1725. Cataloging and related services for information dissemination 
          products.
``1726. Collection development plan.
``1727. Replacement and removal of products from national collection.

                    ``subchapter c--online repository

``1731. Establishment and operation of online repository for no-fee 
          access to information dissemination products.
``1732. Authentication of products.
``1733. Privacy of users.

            ``subchapter d--federal depository library program

``1741. No-fee access to products through Federal Depository Libraries.
``1742. Requirements for Federal Depository Libraries.
``1743. Services available for depository libraries.
``1744. Selective Depository Libraries.
``1745. Regional Depository Libraries.
``1746. Preservation Depository Libraries.
``1747. Procedures for designation.

                      ``subchapter e--sales program

``1751. Sales program.
``1752. Determination of costs of products.
``1753. Inventory.

              ``subchapter f--other programs and authorities

``1761. By-law distribution program.
``1762. International Exchange Service Program.
``1763. Acceptance of gifts.
``1764. Authorities of Director of the Government Publishing Office.
``1765. Source of funds used to carry out programs and activities.
``1766. Congressional oversight.

              ``SUBCHAPTER A--SUPERINTENDENT OF DOCUMENTS


``Sec. 1701. Findings; purpose

  ``(a) Findings.--Congress finds the following:
          ``(1) The free flow of government information is 
        fundamental to a democratic society, and members of the 
        public have a right of access to government 
        information.
          ``(2) The Federal Depository Library Program is an 
        essential means by which members of the public access 
        government information. These libraries partner with 
        the Government Publishing Office and offices of the 
        Federal Government to ensure that members of the public 
        throughout the United States have effective, no-fee 
        access to government information.
          ``(3) The majority of government information 
        currently produced is in electronic format. As a 
        result, 97% of new information available through the 
        Federal Depository Library Program is in electronic 
        format.
          ``(4) Government has a responsibility to disseminate 
        and provide permanent public access to information in 
        order to ensure that members of the public are fully 
        aware of the activities of their government, to spur 
        innovation and research, and to promote good 
        government.
          ``(5) The sole focus of the Superintendent of 
        Documents should be on implementing programs to ensure 
        no-fee access to government information.
  ``(b) Purpose.--It is the purpose of this chapter to promote 
the greatest possible public access to information 
dissemination products by authorizing the Superintendent of 
Documents to--
          ``(1) establish a national collection of information 
        dissemination products and to provide no-fee, permanent 
        public access to such collection through an online 
        repository established and operated by the Director of 
        the Government Publishing Office under subchapter C and 
        through the Federal Depository Library Program under 
        subchapter D;
          ``(2) carry out a cataloging and indexing program for 
        the products in such national collection;
          ``(3) carry out a by-law distribution program and an 
        international exchange service program under subchapter 
        F; and
          ``(4) collaborate with offices of the Federal 
        government, Federal Depository Libraries, and library 
        associations and consortia.

``Sec. 1702. Superintendent of Documents

  ``(a) Appointment.--The Director of the Government Publishing 
Office shall appoint an individual to serve as the 
Superintendent of Documents, without regard to political 
affiliation and solely based on professional qualifications to 
perform the duties and responsibilities of the position, and 
who shall serve at the pleasure of the Director of the 
Government Publishing Office.
  ``(b) Duties.--Under the general direction of the Director of 
the Government Publishing Office, the Superintendent of 
Documents shall administer the programs of GPO which provide 
no-fee public access to Federal information dissemination 
products (IDPs) under this chapter.
  ``(c) Qualifications.--The individual appointed as the 
Superintendent of Documents shall be an accomplished general 
manager and practitioner of library and information sciences, 
including the identification, acquisition, authentication, 
cataloging, dissemination, maintenance, and preservation of 
information dissemination products regardless of form or 
format.
  ``(d) Compensation.--The Superintendent of Documents shall be 
compensated at an annual rate equal to level III of the 
Executive Schedule.

``Sec. 1703. Employees and facilities of Superintendent

  ``(a) Appointment of Employees; Provision of Facilities.--The 
Director of the Government Publishing Office, upon the 
requisition of the Superintendent of Documents, shall appoint 
necessary assistants, furnish blanks, and do the printing and 
binding required by the Superintendent of Documents. The 
Director shall provide convenient office, storage, and 
distributing rooms for the use of the Superintendent of 
Documents.
  ``(b) Pay of Employees for Night, Sunday, Holiday, and 
Overtime Work.--Employees of the Superintendent of Documents 
may be paid for night, Sunday, holiday, and overtime work at 
rates not in excess of the rates of additional pay for this 
work allowed other employees of the Government Publishing 
Office under section 305 of this title.

``Sec. 1704. Coordination and consultation with Library of Congress

  ``In carrying out this chapter, the Superintendent of 
Documents shall coordinate and consult with the Librarian of 
Congress, especially with respect to the provisions of this 
title which affect the collections of the Library of Congress 
and the services the Library provides to Congress.

``Sec. 1705. Coordination and consultation with other legislative 
                    branch officials

  ``In addition to the coordination and consultation required 
under section 1704, in carrying out this chapter, the 
Superintendent of Documents shall coordinate and consult with 
appropriate officials of the legislative branch, including the 
Clerk of the House of Representatives, the Secretary of the 
Senate, and the Librarian of Congress, with respect to the 
production and dissemination of information dissemination 
products of Congress for inclusion in the legislative 
information retrieval system established and operated under 
section 209 of the Legislative Branch Appropriations Act, 1996 
(2 U.S.C. 180).

``Sec. 1706. Definitions

  ``(a) Definition of `Printing'.--
          ``(1) Definition.--In this chapter, the term 
        `printing' includes and applies to all of the processes 
        used to capture, process, and duplicate digital or 
        tangible information, including--
                  ``(A) any formatting, composition, 
                digitization, platemaking, presswork, and 
                binding or other finishing, or the 
                manufacturing of related material;
                  ``(B) the equipment and software applications 
                used in such processes; and
                  ``(C) the end items in any tangible or 
                digital form produced by such processes and 
                equipment for use by an end user.
          ``(2) Review; updates.--The Director of the 
        Government Publishing Office shall regularly review the 
        definition under this subsection to ensure that it is 
        consistent with international and commercial practice, 
        and not less frequently than every 5 years, shall 
        submit recommendations to the Committee on House 
        Administration of the House of Representatives and the 
        Committee on Rules and Administration of the Senate for 
        updates to the definition so that it reflects the most 
        current technology.
  ``(b) Other Definitions.--In this chapter, the following 
definitions apply:
          ``(1) The term `dissemination' means the government-
        initiated distribution of information to a 
        nongovernment entity, including the public. Such term 
        does not include any distribution which is limited to 
        Federal Government employees, intra- or inter-office 
        use or sharing of Federal information, and responses to 
        requests for agency records under the Freedom of 
        lnformation Act (section 552 of title 5) or the Privacy 
        Act (section 552a of title 5).
          ``(2) The term `document' means an information 
        dissemination product.
          ``(3) The term `electronic information dissemination 
        product' means an information dissemination product 
        which is created for or transmitted through an 
        electronic communications system or network of the 
        office in which the product originated.
          ``(4) The term `Federal information' means 
        information created, collected, processed, maintained, 
        disseminated, disclosed, or disposed of by or for the 
        Federal Government, in any medium or form.
          ``(5) The term `Federal information system' means an 
        information system used or operated by an office of the 
        Federal Government or by a contractor of such an office 
        or by another organization on behalf of such an office.
          ``(6) The term `fugitive document' means an 
        information dissemination product which is not 
        cataloged or otherwise identifiable or retrievable by 
        an end user through the online repository under section 
        1721 of this title.
          ``(7) The term `Government publication' means 
        information that is published as an individual document 
        at Government expense, or as required by law, in any 
        medium or form.
          ``(8) The term `graphic communication' means 
        electronic and traditional printing, publishing, 
        packaging, digital imaging, computer graphics, website 
        development, digital photography, printable 
        electronics, and related activities.
          ``(9) The term `information' means any communication 
        or representation of knowledge such as facts, data, or 
        opinions in any medium or form, including textual, 
        numerical, graphic, cartographic, narrative, 
        electronic, or audiovisual forms.
          ``(10) The term `information dissemination product' 
        or `IDP' means any recorded information, regardless of 
        physical form or characteristics, disseminated by an 
        office of the Federal Government, or contractor 
        thereof, to the public, and including any recorded 
        information incorporated by reference into the Code of 
        Federal Regulations. Notwithstanding the provisions of 
        section 106 of title 17, it is not an infringement of 
        any copyright that may subsist in works within an IDP 
        to reproduce, prepare derivative works of, display, 
        perform, distribute, or utilize (including through text 
        or data mining) IDPs under this title.
          ``(11) The term `inter-office agreement' means a 
        written agreement entered into between two or more 
        offices of the Federal Government that specifies the 
        goods to be furnished or tasks to be accomplished by 
        one office (the servicing office) in support of the 
        other(s) (the requesting office), including assisted 
        acquisitions as described in the Memorandum of the 
        Office of Management and Budget entitled `Improving the 
        Management and Use of lnteragency Acquisitions' and 
        other cases described in part 17 of the Federal 
        Acquisition Regulations.
          ``(12) The term `national collection' means (subject 
        to subchapter B) the collection of information 
        dissemination products produced by the Federal 
        Government, and (as described in subchapter B) is a 
        distributed collection accessible from the online 
        repository under subchapter C, the Federal Depository 
        Libraries under subchapter D, and through agreements 
        with other entities as provided by this chapter.
          ``(13) The term `personally identifiable information' 
        means information that can be used to distinguish or 
        trace an individual's identity, either alone or when 
        combined with other information that is linked or 
        linkable to a specific individual.
          ``(14) The term `public information' means any 
        information, regardless of form or format, that an 
        office of the Federal Government discloses, 
        disseminates, or makes available to the public.
          ``(15) The term `publication' means informational 
        matter which is published as an individual document at 
        Federal Government expense, or as required by law.
          ``(16) The term `State' means, except where otherwise 
        provided, each of the several States, the District of 
        Columbia, the Commonwealth of Puerto Rico, American 
        Samoa, Guam, the United States Virgin Islands, and the 
        Commonwealth of the Northern Mariana Islands.
          ``(17) The term `trustworthy information system' 
        means an information system that is believed to be 
        capable of operating within defined levels of risk 
        despite the environmental disruptions, human errors, 
        structural failures, and purposeful attacks that are 
        expected to occur in its environment of operation.

   ``SUBCHAPTER B--NATIONAL COLLECTION OF INFORMATION DISSEMINATION 
                                PRODUCTS


``Sec. 1721. National collection of information dissemination products

  ``(a) Establishment of Collection.--In order to provide 
permanent public access to information dissemination products 
that may be of public interest or educational value, in 
accordance with this subchapter, the Superintendent of 
Documents shall establish a comprehensive, national collection 
of information dissemination products which are determined to 
be appropriate for inclusion in the collection, and shall 
include all information dissemination products which have been 
incorporated by reference into the Code of Federal Regulations.
  ``(b) Public Access to Collection.--Except as provided in 
subsection (c), the Superintendent shall provide permanent 
public access to all of the information dissemination products 
which are included in the national collection through each of 
the following means:
          ``(1) The online repository established and operated 
        by the Director of the Government Publishing Office 
        under subchapter C.
          ``(2) The Federal Depository Library Program under 
        subchapter D.
          ``(3) Methods established for access to products in 
        incompatible formats, as determined under section 
        1722(b)(2).
          ``(4) Cataloging, indexing, identification, location, 
        availability, and format designation services under 
        section 1725.
  ``(c) No Public Access for Certain Products.--
          ``(1) Products described.--The Superintendent shall 
        not provide public access to an information 
        dissemination product which is included in the national 
        collection under this subchapter if any of the 
        following apply:
                  ``(A) The product is a cooperative 
                publication which must necessarily be sold in 
                order to be self-sustaining, unless the 
                applicable official enters into an agreement 
                with the Superintendent to make the product 
                accessible to the public.
                  ``(B) The product contains information the 
                disclosure of which would constitute a clearly 
                unwarranted invasion of personal privacy.
                  ``(C) Prohibiting public access to the 
                product is necessary to comply with relevant 
                law.
          ``(2) Special rule for certain products.--Paragraph 
        (1) does not apply with respect to--
                  ``(A) an information dissemination product 
                which an office disseminates in electronic form 
                to the public at no cost; or
                  ``(B) an information dissemination product 
                consisting of a standard which has been 
                incorporated by reference into the Code of 
                Federal Regulations.
          ``(3) Notification by applicable officials.--Each 
        applicable official shall notify the Superintendent of 
        each instance in which an information dissemination 
        product is subject to paragraph (1).
  ``(d) Historical Collection.--In maintaining the national 
collection under this subchapter, the Superintendent shall 
oversee the maintenance of information dissemination products 
which were created and distributed prior to the effective date 
of the FDLP Modernization Act of 2018.
  ``(e) Applicable Official Defined.--In this subchapter, the 
`applicable official' with respect to an information 
dissemination product is as follows:
          ``(1) In the case of an IDP originating in an office 
        of the executive branch, the head of the office in 
        which the IDP originated.
          ``(2) In the case of an IDP originating in an office 
        of the legislative branch, the head of the office in 
        which the IDP originated, except that--
                  ``(A) if the IDP originated in an office of 
                the House of Representatives, the `applicable 
                official' is the Clerk of the House of 
                Representatives; and
                  ``(B) if the IDP originated in the Senate, 
                the `applicable official' is the Secretary of 
                the Senate.
          ``(3) In the case of an IDP originating in the 
        judicial branch, the Director of the Administrative 
        Office of the United States Courts or the Clerk of the 
        United States Supreme Court (as the case may be).

``Sec. 1722. Responsibility of offices of Government to furnish 
                    products to Superintendent of Documents

  ``(a) Requirement to Furnish Products.--
          ``(1) In general.--If an office of the Federal 
        government produces or procures an information 
        dissemination product, regardless of form or format, 
        the applicable official shall furnish the product to 
        the Superintendent of Documents for inclusion in the 
        national collection established and maintained under 
        this subchapter at the applicable price described in 
        paragraph (2), not later than the date on which the 
        product is made available to the public.
          ``(2) Applicable price described.--In paragraph (1), 
        the `applicable price' with respect to an information 
        dissemination product is--
                  ``(A) in the case of a product in electronic 
                form which the office involved disseminates to 
                the public at no cost, $0; or
                  ``(B) in the case of any other product, such 
                price as may be appropriate, but not to exceed 
                the actual cost to the office involved of 
                producing an additional copy of the product.
  ``(b) Form and Format.--
          ``(1) In general.--In furnishing an information 
        dissemination product to the Superintendent of 
        Documents under this subchapter, the applicable 
        official shall deposit with and notify the 
        Superintendent of digital or tangible (as applicable) 
        versions of such IDP, regardless of the form or format 
        of the product, in such manner as will enable the 
        Superintendent to perform cataloging, indexing, 
        identification, location, availability, and format 
        designation services with respect to the IDP under 
        section 1725 and authentication with respect to the IDP 
        under section 1722.
          ``(2) Special rule for incompatible formats.--
                  ``(A) Providing location and access.--If the 
                form or format of an IDP is not compatible with 
                the electronic systems of the Government 
                Publishing Office, and it is not practicable to 
                make the form or format of the IDP compatible 
                with such systems, the applicable official 
                shall meet the requirements of this section by 
                providing the Superintendent with information 
                on where the content of the IDP is held and how 
                the Superintendent may access the content, and 
                by providing access to and preserving the 
                content of the IDP.
                  ``(B) Cataloging, public access, and 
                preservation.--The Superintendent, in 
                consultation with the applicable official, 
                shall determine the best method to catalog, 
                provide public access to (including through the 
                Federal Depository Library Program under 
                subchapter D), and preserve an IDP which is 
                subject to subparagraph (A).
  ``(c) Notifications Regarding Changes in Production or 
Procurement of Products.--
          ``(1) Change in public access described.--For 
        purposes of this subsection, a change in public access 
        to an information dissemination product means any of 
        the following:
                  ``(A) Terminating production.
                  ``(B) Eliminating production or availability 
                in tangible form.
                  ``(C) Otherwise limiting the provision of 
                public access to only electronic means.
          ``(2) Notification.--The applicable official shall 
        immediately notify the Superintendent of the intent of 
        an office to produce or procure, substantially modify, 
        or make a change in public access to an information 
        dissemination product included in the national 
        collection under subchapter B, regardless of form or 
        format, in order to enable the Superintendent to 
        continue to provide public access to the product under 
        this chapter, including access through the Federal 
        Depository Library Program under subchapter D. Nothing 
        in this paragraph shall be construed to affect the 
        application of section 3506 of this title to any office 
        or applicable official.
          ``(3) Public notice.--The Superintendent of Documents 
        shall publish in the Federal Register, and provide 
        timely notice to the public and the Federal Depository 
        Libraries under subchapter D, of notifications received 
        under paragraph (2). In the case of notifications of a 
        change in public access, the Superintendent of 
        Documents shall provide such notice not later than 10 
        days after receiving the notification.
          ``(4) Restrictions on authority to make changes in 
        public access.--An office may not make a change in 
        public access to an information dissemination product 
        until the expiration of the 70-day period which begins 
        on the date the head of the office notifies the 
        Superintendent of Documents of the intent to make the 
        change.
  ``(d) Failure to Furnish Product.--If an applicable official 
fails to furnish an IDP to the Superintendent of Documents 
under this section--
          ``(1) the Superintendent is authorized to obtain the 
        IDP; and
          ``(2) the office of the applicable official shall 
        reimburse the Superintendent for the costs incurred in 
        obtaining and disseminating the IDP.
  ``(e) Additional Methods of Obtaining Products.--
          ``(1) In general.--In addition to the procedures in 
        this section, the Superintendent of Documents may use 
        any other means not prohibited by law to obtain an 
        information dissemination product for inclusion in the 
        national collection under this subchapter.
          ``(2) Collection of products in collection of federal 
        depository libraries.--The Superintendent may enter 
        into arrangements with a Federal Depository Library 
        under subchapter D to obtain from such Library any IDPs 
        in the Library's own collection of documents and 
        materials and the metadata associated with any such 
        IDPs.
  ``(f) Role of Director of the Government Publishing Office.--
          ``(1) Supervision and oversight.--The Superintendent 
        of Documents shall carry out this section under the 
        supervision of the Director of the Government 
        Publishing Office, who shall be responsible for 
        ensuring the compliance of offices of the Federal 
        government with this section.
          ``(2) Availability of gpo products.--The Director of 
        the Government Publishing Office shall provide the 
        Superintendent with adequate metadata and copies, in 
        digital and tangible form (if available) of all 
        information dissemination products produced or procured 
        by the Government Publishing Office.
  ``(g) Steps to Ensure Compliance by Applicable Officials.--
          ``(1) Regulations.--Each applicable official shall 
        establish guidelines and procedures to ensure that the 
        appropriate personnel of the applicable official's 
        office meet the requirements of this section. To the 
        extent that the applicable official has the authority 
        under law to promulgate regulations, the official shall 
        establish such guidelines and procedures by regulation.
          ``(2) Reports to director of the government 
        publishing office.--Not later than 180 days after the 
        date of the enactment of the FDLP Modernization Act of 
        2018 and every 3 years thereafter, each applicable 
        official shall submit a report to the Director of the 
        Government Publishing Office setting forth a plan to 
        ensure the official's compliance with the requirements 
        of this section, including steps to sanction employees 
        of the official's office for failure to comply with 
        such requirements.
  ``(h) Effective Date; Transition Rule for Electronic Products 
Furnished to Depository Libraries.--
          ``(1) In general.--This section shall apply with 
        respect to any information dissemination product 
        produced or procured on or after the effective date of 
        the FDLP Modernization Act of 2018.
          ``(2) Furnishing electronic products to federal 
        depository libraries during transition.--
                  ``(A) Inventory of products.--Not later than 
                2 years after the date of the enactment of the 
                FDLP Modernization Act of 2018, the applicable 
                official of each office shall provide the 
                Superintendent of Documents with an inventory 
                of, and access to, all electronic information 
                dissemination products (as defined in section 
                1724) which originated in the office prior to 
                the effective date of such Act.
                  ``(B) Furnishing of products to libraries.--
                If, in the same manner applicable to 
                information dissemination products under 
                section 1721, the Superintendent determines 
                that a product in the inventory provided under 
                subparagraph (A) would be appropriate for 
                inclusion in the national collection under this 
                subchapter (if the product were procured or 
                produced after the effective date of the FDLP 
                Modernization Act of 2018), the applicable 
                official shall furnish the product to the 
                Superintendent for distribution to Federal 
                Depository Libraries under subchapter D, as 
                determined by the Superintendent.
                  ``(C) Costs.--The cost of furnishing an IDP 
                to a Federal Depository Library under this 
                paragraph shall be paid by the Superintendent 
                of Documents.

``Sec. 1723. Requirements for agreements to produce or procure products

  ``(a) Notification to Superintendent of Documents.--An office 
of the Federal government may not enter into a contract for the 
procurement of production of an information dissemination 
product by any entity other than the Director of the Government 
Publishing Office, regardless of form or format, unless each of 
the following requirements is met:
          ``(1) Prior to entering into the contract, the 
        applicable official notifies the Superintendent of 
        Documents.
          ``(2) The contract includes a requirement that the 
        office shall ensure that the product will be furnished 
        to the Superintendent in accordance with the 
        requirements of this chapter, including any requirement 
        regarding the number, type, and format of copies of the 
        product.
          ``(3) The contract includes a requirement that the 
        office shall meet such conditions as the Superintendent 
        may require to ensure no-fee public access to the 
        product in accordance with this chapter.
  ``(b) Prior Certification of Notice to Superintendent.--No 
production or procurement of an IDP may take place under a 
contract described in subsection (a) until the applicable 
official verifies that notice of the contract was provided to 
the Superintendent of Documents.
  ``(c) Role of Director of the Government Publishing Office.--
The Superintendent of Documents shall carry out this section 
under the supervision of the Director of the Government 
Publishing Office, who shall be responsible for ensuring the 
compliance of offices of the Federal government with this 
section.

``Sec. 1724. Special requirements for electronic information 
                    dissemination products

  ``(a) Types of Material Required to Be Furnished to 
Superintendent of Documents.--For purposes of section 1722, 
upon request of the Superintendent of Documents, the applicable 
official shall promptly provide the Superintendent with copies 
of, or access to, electronic files and metadata or other 
digital descriptive material associated with an electronic 
information dissemination product (including any relevant 
material necessary for the Superintendent to comply with 
section 1725) which will enable the Superintendent to provide 
permanent public access to the IDP through the online 
repository under subchapter C and through the Federal 
Depository Library Program under subchapter D.
  ``(b) Special Rules for Products Made Available on Websites 
of Originating Offices.--
          ``(1) Sharing of metadata with director of the 
        government publishing office.--If an office of the 
        Government makes an electronic information 
        dissemination product of the office available to the 
        public through the office's website, the head of the 
        office shall ensure that the Director of the Government 
        Publishing Office (acting through the Superintendent of 
        Documents) has the appropriate metadata associated with 
        the product to enable the Director of the Government 
        Publishing Office to provide a link to the product 
        through the online repository under subchapter C and to 
        otherwise provide permanent public access to the 
        product for purposes of this chapter.
          ``(2) Treatment of online fee-for-service programs.--
        If an office of the Government makes IDPs available to 
        the public online under a fee-for-service program, the 
        office shall ensure that the Superintendent of 
        Documents has access to such services, at a cost no 
        greater than the applicable price described in section 
        1722(a)(2), so that the Superintendent may make such 
        services available to Federal Depository Libraries 
        under subchapter D.
  ``(c) Online Public Access During Transition to Online 
Repository.--If, at any time after the effective date of the 
FDLP Modernization Act of 2018, the online repository under 
subchapter C is not in operation, each office in which an 
electronic information dissemination product originates shall 
provide permanent public access to the IDP through an 
electronic communications system or network.

``Sec. 1725. Cataloging and related services for information 
                    dissemination products

  ``(a) Cataloging, Indexing, Identification, Location, 
Availability, and Format Designation Services.--
          ``(1) Services described.--The Superintendent of 
        Documents shall--
                  ``(A) perform cataloging, indexing, 
                identification, location, availability, and 
                format designation services with respect to the 
                information dissemination products included in 
                the national collection under this subchapter;
                  ``(B) perform cataloging, indexing, 
                identification, location, availability, and 
                format designation services with respect to any 
                information dissemination products which are 
                included in the historical collection under 
                section 1721(d); and
                  ``(C) make the resulting cataloging, 
                indexing, identification, location, 
                availability, and format designation 
                information available for no-fee public access 
                under the program described in subsection (b), 
                and as part of the national collection under 
                this subchapter.
          ``(2) Ensuring incorporation of current methodologies 
        and practices.--The Superintendent shall periodically 
        review and revise the methods by which the 
        Superintendent performs the services required under 
        paragraph (1) to ensure that such methods incorporate 
        contemporary library and information management 
        methodologies and practices.
          ``(3) Rule of construction relating to products not 
        subject to public access.--Nothing in this subchapter 
        may be construed to waive the requirement that the 
        Superintendent perform services under subparagraph (A) 
        of paragraph (1) with respect to an information 
        dissemination product which is included in the national 
        collection under this subchapter but for which the 
        Superintendent does not provide public access to the 
        product under section 1721(c).
  ``(b) Catalog of Government Products.--
          ``(1) Establishment of catalog.--The Superintendent 
        of Documents shall establish and maintain a Catalog of 
        Government Products consisting of a comprehensive set 
        of metadata, including the digital object identifier, 
        associated with information dissemination products, 
        including existing products which are not yet 
        catalogued, and may make the records of such Catalog 
        available in other bibliographic utilities that support 
        widely available record sharing.
          ``(2) National bibliographic records inventory.--The 
        Superintendent shall carry out a program to bring 
        fugitive documents under bibliographic control and to 
        make records associated with such documents available 
        through the Catalog established and maintained under 
        paragraph (1) and other appropriate bibliographic 
        utilities.
  ``(c) Digitization.--
          ``(1) In general.--The Superintendent of Documents is 
        authorized to digitize, to the greatest extent 
        practicable, all information dissemination products 
        created at any time, and to include such products in 
        digitized form in the national collection under this 
        subchapter.
          ``(2) Authentication.--To the greatest extent 
        practicable, the Superintendent shall identify the 
        chain of custody or other provenance of IDPs in the 
        national collection under this subchapter which are in 
        digitized form, and shall verify that such IDPs are 
        complete and unaltered.
  ``(d) Authorizing Activities to Be Carried Out by Other 
Entities.--
          ``(1) Authorization.--The Superintendent of Documents 
        may enter into an agreement with another entity 
        (including a Federal Depository Library under 
        subchapter D) to carry out any of the activities 
        authorized under this section, in accordance with 
        regulations promulgated under this subchapter.
          ``(2) Treatment of work product as work of united 
        states government for purposes of copyright.--For 
        purposes of section 105 of title 17, any work product 
        produced under an agreement entered into under 
        paragraph (1) shall be considered a work of the United 
        States Government.
  ``(e) Coordination With Other Legislative Branch Officials.--
In carrying out this section, the Superintendent shall 
coordinate and consult with appropriate officials of the 
legislative branch, including the Clerk of the House of 
Representatives, the Secretary of the Senate, and the Librarian 
of Congress, with respect to the dissemination of information 
dissemination products under this subchapter for inclusion in 
the legislative information retrieval system established and 
operated under section 209 of the Legislative Branch 
Appropriations Act, 1996 (2 U.S.C. 180).

``Sec. 1726. Collection development plan

  ``(a) Plan.--The Superintendent of Documents shall establish 
a collection development plan for the national collection of 
information dissemination products under this subchapter, 
taking into consideration the requirements of the online 
repository under subchapter C and the needs of the Federal 
Depository Library Program under subchapter D.
  ``(b) Regulations.--The collection development plan under 
this section shall be carried out in accordance with 
regulations promulgated under this subchapter.

``Sec. 1727. Replacement and removal of products from national 
                    collection

  ``(a) Limitation on Replacement and Removal.--An information 
dissemination product may not be replaced or removed from the 
national collection under this subchapter except as provided 
under the policies described in subsection (b).
  ``(b) Policies.--
          ``(1) In general.--The Superintendent of Documents 
        shall carry out each of the following policies with 
        respect to the information dissemination products, 
        regardless of form or format, which are included in the 
        national collection under this subchapter:
                  ``(A) A policy for the replacement of an IDP 
                in case of error.
                  ``(B) A policy for the removal of an IDP when 
                required to comply with relevant law.
          ``(2) Requirements.--The policies described in 
        paragraph (1) shall provide for--
                  ``(A) notification of the replacement or 
                removal to the public and the Federal 
                Depository Libraries; and
                  ``(B) compliance with relevant law, including 
                the need for the preservation of materials for 
                archival purposes with the National Archives 
                and Records Administration.
  ``(c) Regulations.--Each of the policies under this section 
shall be carried out in accordance with regulations promulgated 
under this subchapter.

                   ``SUBCHAPTER C--ONLINE REPOSITORY


``Sec. 1731. Establishment and operation of online repository for no-
                    fee access to information dissemination products

  ``(a) Online Repository.--The Director of the Government 
Publishing Office shall establish and operate a trustworthy 
information system and online repository through which members 
of the public may obtain, at no charge, information 
dissemination products which are included in the national 
collection established and maintained under subchapter B.
  ``(b) Open and Bulk Formats.--To the greatest extent 
practicable, the online repository shall provide users with 
access to IDPs in open, machine-readable, and nonproprietary 
formats, and be available for bulk download with the relevant 
metadata incorporated.
  ``(c) Preservation of Products.--The Director of the 
Government Publishing Office shall ensure the preservation for 
permanent public access of information dissemination products 
included in the online repository, including through a program 
providing for the permanent retention of digital materials.

``Sec. 1732. Authentication of products

  ``(a) Requiring Authentication.--To the greatest extent 
practicable, the Director of the Government Publishing Office 
shall ensure that each information dissemination product made 
available on the online repository under this subchapter is 
authenticated, identify the product's chain of custody or other 
provenance, and verify that the product is complete and 
unaltered.
  ``(b) Identification of Non-authenticated Products.--The 
Director of the Government Publishing Office shall ensure that 
if any IDP in the online repository is not authenticated, the 
lack of authentication shall be noted within the IDP.

``Sec. 1733. Privacy of users

  ``(a) Protecting User Privacy.--Not later than 180 days after 
the date of the enactment of the FDLP Modernization Act of 
2018, the Superintendent of Documents shall implement measures 
to protect the privacy of individuals using the online 
repository under this subchapter, and shall ensure that such 
measures provide users with at least the same level of privacy 
as provided under section 552a of title 5 (commonly known as 
the Privacy Act of 1974) and section 208 of the E-Government 
Act of 2002 (Public Law 107-347; set out as a note under 
section 3501 of this title).
  ``(b) Regulations.--This section shall be carried out in 
accordance with regulations promulgated under this subchapter.

           ``SUBCHAPTER D--FEDERAL DEPOSITORY LIBRARY PROGRAM


``Sec. 1741. No-fee access to products through Federal Depository 
                    Libraries

  ``(a) Federal Depository Library Program.--The Director of 
the Government Publishing Office, acting through the 
Superintendent of Documents, shall operate a program under 
which, in accordance with this subchapter--
          ``(1) the Superintendent of Documents shall designate 
        libraries as Federal Depository Libraries, including 
        Selective Depository Libraries, Regional Depository 
        Libraries, and Preservation Depository Libraries;
          ``(2) the Superintendent shall furnish, at no cost, 
        to each library designated as a Federal Depository 
        Library under this subchapter access to the national 
        collection of information dissemination products under 
        subchapter B, including--
                  ``(A) complete access to cataloging, 
                indexing, identification, location, 
                availability, and format designation services 
                under section 1725;
                  ``(B) complete access to the online 
                repository under subchapter C; and
                  ``(C) such information dissemination products 
                as are provided for in this subchapter; and
          ``(3) each such Federal Depository Library shall 
        provide no-fee access to the collection to members of 
        the public.
  ``(b) Special Rule for Copies of Congressional Documents.--
          ``(1) Reports or other documents of congress.--
                  ``(A) In general.--Notwithstanding section 
                701 of this title, the Director of the 
                Government Publishing Office shall print and 
                provide such number of copies of each report or 
                other document of Congress as the 
                Superintendent of Documents may establish for 
                purposes of furnishing such reports and 
                documents for the Federal Depository Library 
                Program under this subchapter.
                  ``(B) Format; binding.--The Director shall 
                provide the Superintendent of Documents with 
                the copies required under this paragraph in 
                unbound form as soon as practicable after 
                printing is completed, except that any report 
                or other document of sufficient size on any one 
                subject (as established by the Superintendent) 
                shall be bound separately and receive the title 
                suggested by the subject of the volume. The 
                Director shall provide that the bound sets of 
                such reports or other documents are arranged in 
                volumes and bound in a practical and economical 
                manner as established by the Superintendent.
          ``(2) Congressional record.--Notwithstanding section 
        906 of this title, the Director of the Government 
        Publishing Office shall print and provide such number 
        of copies of the Congressional Record as the 
        Superintendent of Documents may establish for purposes 
        of furnishing the Congressional Record for the Federal 
        Depository Library Program under this subchapter.

``Sec. 1742. Requirements for Federal Depository Libraries

  ``(a) Minimum Requirements Described.--Each library 
designated as a Federal Depository Library under this 
subchapter shall meet the following requirements:
          ``(1) The library shall provide members of the public 
        with no-fee access to all of the information 
        dissemination products furnished to the library by the 
        Superintendent of Documents under this chapter--
                  ``(A) in electronic format by providing 
                internet access to the online repository under 
                subchapter C and to cataloging, indexing, 
                identification, location, availability, and 
                format designation services under section 1725; 
                and
                  ``(B) in any format deposited under this 
                subchapter.
          ``(2) The library shall ensure that a member of the 
        library's staff who is knowledgeable about the services 
        described in paragraph (1) is reasonably available to 
        assist patrons with the provision of such services.
          ``(3) The library shall meet such other additional 
        requirements as the Superintendent may establish by 
        regulations promulgated under this subchapter.
  ``(b) Maintenance and Removal of Deposited IDPs.--In addition 
to the requirements described in subsection (a), each library 
designated as a Federal Depository Library under this 
subchapter shall maintain the information dissemination 
products furnished to the library by the Superintendent under 
this chapter (regardless of form or format) in accordance with 
such policies as the Superintendent may establish, and may 
remove any such products only in accordance with such policies 
as the Superintendent may establish (consistent with the 
requirements of section 1744 in the case of Selective 
Depository Libraries and the requirements of section 1745 in 
the case of Regional Depository Libraries).
  ``(c) Management of IDPs in Tangible Form.--Any information 
dissemination product which is deposited with a Federal 
Depository Library under this subchapter in tangible form 
remains the property of the United States Government unless the 
IDP is donated to the Library under section 1743(b).
  ``(d) Regulations.--The Superintendent shall establish the 
requirements of this section in accordance with regulations 
promulgated under this subchapter. Such regulations shall 
encourage participation by a broad and diverse group of 
libraries, and may not establish a limit on the number of 
libraries which may be designated under this section.

``Sec. 1743. Services available for depository libraries

  ``(a) Optional Digital Deposit.--
          ``(1) In general.--At the option of the Library, a 
        Federal Depository Library may receive directly from 
        the Superintendent of Documents deposits in electronic 
        format of information dissemination products included 
        in the national collection, unless impracticable, in 
        accordance with regulations promulgated under this 
        subchapter.
          ``(2) Protecting privacy of users.--If the Library 
        permits individuals to seek access to IDPs which are 
        hosted on its own server in accordance with this 
        subsection, the Library shall comply to the extent 
        practicable with the same measures implemented by the 
        Superintendent of Documents to protect the privacy of 
        individuals who seek access to IDPs through the use of 
        online repository under subchapter C.
  ``(b) Donation of IDPs.--If an information dissemination 
product deposited with a Federal Depository Library is no 
longer needed for purposes of this subchapter, the 
Superintendent may donate the product to the Library, in 
accordance with regulations promulgated under this subchapter.
  ``(c) Availability of Training Program for Use of 
Libraries.--
          ``(1) Development of program.--The Superintendent 
        shall develop a training and continuing education 
        program which may be used by Federal Depository 
        Libraries to promote the ability of the Libraries to 
        understand the operation of the program under this 
        subchapter and the content of the materials furnished 
        to the Libraries under the program.
          ``(2) Optional use of program.--The use by any 
        Federal Depository Library of the program developed 
        under paragraph (1) shall be optional for the Library.
          ``(3) Availability to public.--Nothing in this 
        subsection may be construed to prohibit the 
        Superintendent from making the program developed under 
        paragraph (1) or any materials developed as part of 
        such program available to the public, as the 
        Superintendent considers appropriate.

``Sec. 1744. Selective Depository Libraries

  ``(a) Selective Depository Libraries Described.--A library 
which is designated as a Federal Depository Library may, at its 
request, be designated as a Selective Depository Library if the 
Library meets the following requirements:
          ``(1) The Library provides access to selected 
        information dissemination products in tangible form as 
        provided by the Superintendent of Documents, under 
        regulations promulgated under this subchapter.
          ``(2) The Library agrees to maintain its collection 
        of such IDPs in tangible form for a minimum of 5 years 
        after receipt, unless the Superintendent authorizes 
        earlier withdrawal.
          ``(3) The Library collaborates with a Regional 
        Depository Library (as designated under section 1745) 
        on the maintenance of a regional collection of such 
        IDPs in tangible form.
          ``(4) A Member of Congress makes a recommendation to 
        the Superintendent that the Library should be 
        designated as a Selective Depository Library.
  ``(b) Regulations; Limitation on Number.--The Superintendent 
shall carry out this section in accordance with regulations 
promulgated under this subchapter. Such regulations shall 
provide for an adequate number and distribution of Selective 
Depository Libraries in order to meet the information needs of 
the public, and shall not prevent the designation of at least 
one Selective Depository Library in each congressional 
district.

``Sec. 1745. Regional Depository Libraries

  ``(a) Regional Depository Libraries Described.--A library 
which is designated as a Federal Depository Library may, at its 
request, be designated as a Regional Depository Library if the 
Library meets the following requirements:
          ``(1) The Library agrees to receive its information 
        dissemination products from the Superintendent of 
        Documents for purposes of this subchapter in tangible 
        form, except that the Library may decline to receive an 
        IDP in tangible form if the authenticated IDP is 
        available through the online repository under 
        subchapter C.
          ``(2) The Library provides access to all IDPs under 
        this subchapter regardless of form or format.
          ``(3) The Library coordinates and collaborates with 
        Selective Depository Libraries to maintain access to 
        the collection of IDPs available within the region, 
        including IDPs deposited prior to the library's 
        designation as a Federal Depository Library under this 
        subchapter, and may do so by housing some of its 
        collection at one or more Selective Depository 
        Libraries pursuant to an agreement with such Selective 
        Depository Library.
          ``(4) The Library agrees to provide services under 
        this subchapter to Selective Depository Libraries under 
        agreements facilitated by the Superintendent of 
        Documents, in accordance with regulations promulgated 
        under this subchapter.
          ``(5) A Senator (or, in the case of a Library in the 
        District of Columbia, the Commonwealth of Puerto Rico, 
        American Samoa, Guam, the United States Virgin Islands, 
        or the Commonwealth of the Northern Mariana Islands, a 
        Delegate or Resident Commissioner to the Congress) 
        makes a recommendation to the Superintendent that the 
        Library should be designated as a Regional Depository 
        Library.
  ``(b) Withdrawal of Collection of Tangible IDPs.--A Regional 
Depository Library may withdraw from its collection an IDP 
which is in tangible form if--
          ``(1) the authenticated IDP is available through the 
        online repository under subchapter C; and
          ``(2) the Superintendent has identified for 
        preservation an appropriate number of copies of the IDP 
        in tangible form in a sufficient number of Federal 
        Depository Libraries.
  ``(c) Relocation of Collection of Tangible IDPs.--If a 
collection of information dissemination products in tangible 
form is relocated from a Regional Depository Library to another 
Federal Depository Library under this subchapter (including 
relocation resulting from the selective discarding of such 
products and the acceptance of such discarded products by 
another Federal Depository Library), the Director of the 
Government Publishing Office may pay the costs of the 
relocation, including related cataloging and transportation 
costs.
  ``(d) Regulations; Contents.--
          ``(1) In general.--The Superintendent shall carry out 
        this section in accordance with regulations promulgated 
        under this subchapter. Such regulations shall--
                  ``(A) in establishing criteria for agreements 
                between Regional Depository Libraries and 
                Selective Depository Libraries (as described in 
                paragraph (4) of subsection (a)), give 
                preference to any consortia and similar 
                collaborative efforts in effect between such 
                Libraries, without regard to geographic 
                restrictions;
                  ``(B) limit the number of Regional Depository 
                Libraries located in any State to 2; and
                  ``(C) unless impracticable, provide for the 
                designation of at least 2 Regional Depository 
                Libraries in each census region.
          ``(2) Consultation.--In establishing regulations 
        under paragraph (1), the Superintendent shall consult 
        with Selective Depository Libraries and Regional 
        Depository Libraries.

``Sec. 1746. Preservation Depository Libraries

  ``(a) Preservation Depository Libraries Described.--A library 
which is designated as a Federal Depository Library may, at its 
request, be designated as a Preservation Depository Library if 
the Library enters into an agreement with the Superintendent of 
Documents to assist the Superintendent with the preservation of 
information dissemination products in the national collection 
under subchapter B.
  ``(b) Location of Products.--Under an agreement under this 
section, a Preservation Depository Library may preserve IDPs 
(regardless of form or format) by housing them at its own 
location or by coordinating and managing all or part of 
collections of IDPs which are housed at other Federal 
Depository Libraries.
  ``(c) Preservation Agreements With Other Entities.--In 
addition to designating Preservation Depository Libraries under 
this section, the Superintendent may enter in agreements with 
other entities to assist the Superintendent with the 
preservation of information dissemination products in the 
national collection under subchapter B.
  ``(d) Regulations.--The Superintendent shall carry out this 
section in accordance with regulations promulgated under this 
subchapter. Under such regulations, the Superintendent shall 
seek to designate Preservation Depository Libraries in a manner 
which promotes geographic diversity.

``Sec. 1747. Procedures for designation

  ``(a) In General.--The Superintendent of Documents may 
designate a library as a Federal Depository Library under this 
subchapter if the Library provides the Superintendent (at such 
time and in such form as the Superintendent may require) such 
information and assurances as the Superintendent may require to 
determine that the library will meet the applicable 
requirements of this subchapter, in accordance with regulations 
promulgated under this subchapter.
  ``(b) Termination of Designation.--
          ``(1) Termination.--The designation of a library as a 
        Federal Depository Library, Selective Depository 
        Library, Regional Depository Library, or Preservation 
        Depository Library under this subchapter may be 
        terminated by the Superintendent only--
                  ``(A) if the Superintendent determines that 
                the library does not meet the applicable 
                requirements for designation under this 
                subchapter; or
                  ``(B) at the request of the library.
          ``(2) Criteria for determination.--The determination 
        by the Superintendent under subparagraph (A) of 
        paragraph (1) shall be made in accordance with 
        regulations promulgated under this subchapter which 
        shall provide for a reasonable opportunity for 
        remediation.

                     ``SUBCHAPTER E--SALES PROGRAM


``Sec. 1751. Sales program

  ``(a) Authorization of Sales Program.--
          ``(1) In general.--The Director of the Government 
        Publishing Office may operate a program for the sale of 
        information dissemination products to the public.
          ``(2) Format of products offered.--The Director may 
        offer products for sale under the program in any form 
        or format (including tangible and electronic), except 
        that if the Director makes alterations to the product 
        by reformatting or otherwise manipulating the original 
        form or format of the content of the product to prepare 
        it for sale, the Director must disclose such 
        alterations on the product.
          ``(3) Exclusion of confidential materials.--The 
        Director may not offer any product for sale under the 
        program if the product is confidential in nature.
  ``(b) Acquisition of Products.--
          ``(1) Authorization of additional production or 
        procurement.--The Director of the Government Publishing 
        Office may produce or procure additional copies of IDPs 
        for the use of the sales program, so long as such 
        production or procurement does not interfere with the 
        prompt execution of IDP production or procurement for 
        the Government.
          ``(2) Reprinting of documents.--In the case of an IDP 
        which consists of a document, the Director may from 
        time to time reprint additional copies of the document 
        for sale under the program, so long as the Director 
        notifies the office which created the IDP.
          ``(3) Blank forms.--The Director may print additional 
        copies of approved Government forms for sale to the 
        public under the sales program.
  ``(c) Resale by Commercial Vendors.--
          ``(1) Authorization of resale.--As part of the sales 
        program, the Director of the Government Publishing 
        Office may authorize the resale of IDPs by book dealers 
        and other commercial vendors, under such terms and 
        conditions as the Director may establish.
          ``(2) No effect on public access.--Nothing in 
        paragraph (1) may be construed to remove any IDP which 
        is subject to resale under such paragraph (including 
        the original text and the underlying data) from the 
        public domain, or to waive any requirement that the IDP 
        be available for no-fee public access under any other 
        subchapter of this chapter.

``Sec. 1752. Determination of costs of products

  ``(a) Operation of Program on Self-sustaining Basis.--To the 
greatest extent feasible, the Director of the Government 
Publishing Office shall operate the sales program under this 
subchapter on a self-sustaining basis, so that the prices of 
the information dissemination products sold will cover the cost 
of procurement or production, dissemination, and other 
appropriate costs associated with the program as determined by 
the Director, including the offering of sales discounts.
  ``(b) Special Rule for Federal Depository Library Program.--
The Director of the Government Publishing Office shall ensure 
that any IDP (regardless of form or format) which is made 
available for sale under the sales program is offered to the 
Superintendent of Documents for purposes of this chapter at no 
greater than the applicable price described in subsection 
(a)(2) of section 1722.

``Sec. 1753. Inventory

  ``(a) Annual Inventory.--The Director of the Government 
Publishing Office shall conduct an inventory of the sales 
program under this subchapter each fiscal year and use the 
results of the inventory to determine stock levels necessary 
for the next year.
  ``(b) Destruction or Remaindering of Inventory.--Prior to 
destroying or remaindering any inventory of IDPs, the Director 
of the Government Publishing Office shall first offer the 
inventory at no cost to--
          ``(1) the Superintendent of Documents for purposes of 
        the other subchapters of this chapter; and
          ``(2) if the Superintendent rejects the offer, the 
        office which created the IDPs.

             ``SUBCHAPTER F--OTHER PROGRAMS AND AUTHORITIES


``Sec. 1761. By-law distribution program

  ``(a) House of Representatives and Senate.--For each fiscal 
year, the Superintendent shall deliver information 
dissemination products to the Clerk of the House of 
Representatives for use in the libraries of the House and to 
the Secretary of the Senate for use in the libraries of the 
Senate.
  ``(b) National Archives and Records Administration.--For each 
fiscal year, the Superintendent shall deliver information 
dissemination products to the National Archives and Records 
Administration for use by the Archivist of the United States, 
including use by the Presidential Library established for the 
President during whose term the IDPs were produced, based on a 
determination made by the Archivist and the Superintendent 
jointly of the number of IDPs necessary for the use of the 
Archivist.
  ``(c) Foreign Dissemination.--
          ``(1) United states legations and consulates.--The 
        Superintendent may disseminate an information 
        dissemination product to a legation or consulate of the 
        United States only if the Secretary of State, by an 
        order to be recorded in the State Department, 
        determines that the dissemination is suitable for and 
        required by the legation and consulate.
          ``(2) Foreign legations.--The Superintendent may 
        disseminate an information dissemination product to a 
        foreign legation to the United States only upon request 
        of the Secretary of State, and only in such number as 
        the Secretary provides in the request. The 
        Superintendent may disseminate an IDP to a foreign 
        legation to the United States without cost only if the 
        government of such legation furnishes copies of its 
        printed and legislative documents to legations of the 
        United States.
  ``(d) Library of Congress and Congressional Research 
Service.--
          ``(1) Library of congress.--For each fiscal year, the 
        Superintendent shall furnish to the Library of Congress 
        a number of full and partial sets of information 
        dissemination products in a timely manner, based on a 
        determination made by the Librarian of Congress and 
        transmitted to the Superintendent of the number of sets 
        necessary for the Library to provide services to 
        Congress and to maintain its collections for such 
        fiscal year.
          ``(2) Congressional research service.--For each 
        fiscal year, the Superintendent shall furnish to the 
        Congressional Research Service a number of full and 
        partial sets of information dissemination products in a 
        timely manner, based on a determination made by the 
        Director of the Congressional Research Service and 
        transmitted to the Superintendent of the number of sets 
        necessary to provide services to Congress for such 
        fiscal year. The Director shall make a payment for the 
        costs incurred by the Superintendent in furnishing IDPs 
        under this paragraph, and for the related costs of 
        carrying out this paragraph, based on the incremental 
        costs of printing, using funds appropriated to the 
        Director for such purpose.

``Sec. 1762. International Exchange Service Program

  ``(a) Dissemination Through Librarian of Congress.--For each 
fiscal year, the Superintendent shall furnish a number of full 
and partial sets of information dissemination products in a 
timely manner to the Library of Congress to enable the 
Librarian of Congress to meet the requirements of international 
exchange service programs for such fiscal year, based on a 
determination made by the Librarian of Congress and transmitted 
to the Superintendent of the number of sets necessary for such 
purpose. The costs of carrying out this subsection shall be 
charged to appropriations provided for the Superintendent for 
purposes of this subsection.
  ``(b) International Exchange Service Programs Described.--In 
this section, an `international exchange service program' is 
any program to fully carry into effect the convention concluded 
at Brussels on March 15, 1886, and proclaimed by the President 
of the United States on January 15, 1889, and all subsequent 
bilateral and multilateral treaties and agreements under which 
copies of Government publications are provided for distribution 
to foreign governments which agree, as indicated by the 
Librarian of Congress, to send to the United States similar 
publications of their governments for delivery to the Library 
of Congress.

``Sec. 1763. Acceptance of gifts

  ``The Director of the Government Publishing Office may accept 
and use gifts and bequests of property (both real and personal) 
and services in support of the Superintendent's 
responsibilities under this chapter.

``Sec. 1764. Authorities of Director of the Government Publishing 
                    Office

  ``(a) Plenary Authority to Promote Public Access to 
Products.--Consistent with this chapter and other applicable 
laws, the Director of the Government Publishing Office may take 
such measures as the Director considers necessary to ensure the 
timely dissemination of information dissemination products to 
the public and to expand and improve the maintenance of 
permanent public access to such products.
  ``(b) Regulations.--
          ``(1) In general.--The Director of the Government 
        Publishing Office may promulgate such regulations as 
        the Director considers necessary to carry out any 
        subchapter of this chapter on behalf of the 
        Superintendent of Documents, in accordance with the 
        requirements of this section.
          ``(2) Application of administrative procedures.--The 
        promulgation of regulations by the Director pursuant to 
        this subsection shall be subject to the following laws:
                  ``(A) Section 553 of title 5 (relating to 
                notice and comment requirements for agency rule 
                making).
                  ``(B) Chapter 7 of title 5 (relating to 
                judicial review of agency actions).
          ``(3) Mandatory review.--3 years after the 
        promulgation of any regulation pursuant to this 
        subsection and every 3 years thereafter, the Director 
        shall conduct a review of the regulation to determine 
        whether or not the regulation should be updated or 
        repealed.
          ``(4) Consultation with libraries.--The Director 
        shall carry out paragraphs (1) and (3) in consultation 
        with the Federal Depository Libraries and other 
        appropriate parties.
          ``(5) Permanent retention; public accessibility.--The 
        Director shall ensure that any regulation promulgated 
        pursuant to this subsection is retained permanently in 
        the records of the Government Publishing Office and is 
        fully accessible to the public.

``Sec. 1765. Source of funds used to carry out programs and activities

  ``The costs of carrying out any programs and activities under 
this chapter shall be paid solely from a separate appropriation 
made for the activities of the Superintendent of Documents or 
from gifts and bequests accepted under section 1763.

``Sec. 1766. Congressional oversight

  ``(a) Reports.--Not later than 45 days after the first 6 
months of each fiscal year, and not later than 45 days after 
the next 6 months of each fiscal year, the Director of the 
Government Publishing Office shall submit to the Joint 
Committee on Printing a report on the activities of the 
Superintendent of Documents during the previous 6 months, and 
shall include in the report the following information:
          ``(1) Gifts accepted by the Director under section 
        1763, including the donor, the amount, and the 
        disposition.
          ``(2) Actions taken to ensure the protection of the 
        privacy of users of information dissemination products.
          ``(3) The status of the Depository Library Program 
        under subchapter D.
          ``(4) The status of any pending rules or regulations 
        proposed under this chapter.
          ``(5) Notifications received by the Superintendent of 
        Documents under section 1723(a).
          ``(6) Any information dissemination products replaced 
        or recalled under section 1727 from the national 
        collection established under subchapter B.
  ``(b) Posting for No-fee Public Access.--At the time of 
submitting a report under subsection (a) to the Joint Committee 
on Printing, the Director of the Government Publishing Office 
shall post an electronic version of the report on the 
Government Publishing Office's official website for no-fee 
public access.''.
  (b) Conforming Amendments to Title 44, United States Code.--
          (1) Distribution of congressional documents for 
        library of congress and international exchange service 
        programs.--Section 701 of title 44, United States Code, 
        is amended--
                  (A) in subsection (b), by striking ``ten 
                copies, as provided by section 1718 of this 
                title'' each place it appears and inserting 
                ``the number of copies determined in accordance 
                with section 1761(d) of this title''; and
                  (B) in subsection (c), by striking ``not to 
                exceed one hundred and fifty copies, as 
                provided by section 1718 of this title'' and 
                inserting ``the number of copies determined in 
                accordance with section 1761(d) of this 
                title''; and
                  (C) in subsection (c), by striking ``as 
                provided by sections 1718 and 1719 of this 
                title'' and inserting ``as determined in 
                accordance with sections 1761(d) and 1762 of 
                this title''.
          (2) Distribution of congressional record for library 
        of congress and international exchange programs.--
        Section 906 of such title is amended by striking ``as 
        provided by sections 1718 and 1719 of this title, not 
        to exceed one hundred and forty-five copies of the 
        daily, five semimonthly copies, and one hundred and 
        fifty bound copies'' and inserting ``the number of 
        copies determined in accordance with sections 1761(d) 
        and 1762 of this title''.
          (3) Preparation of federal register and code of 
        federal regulations.--The last sentence of section 1504 
        of such title is amended by striking ``by sections 1705 
        and 1708 of this title'' and inserting ``by subchapter 
        E of chapter 17 of this title''.
          (4) Other conforming amendments.--Title 44, United 
        States Code, is further amended by striking chapters 19 
        and 41.
  (c) Clerical Amendments.--The table of chapters for title 44, 
United States Code, is amended--
          (1) by striking the item relating to chapter 17 and 
        inserting the following:

   ``CHAPTER 17--No-Fee Public Access to Government Information''; and

          (2) by striking the items relating to chapters 19 and 
        41.

SEC. 3. TRANSITION.

  (a) Treatment of Individual Currently Holding Position of 
Superintendent of Documents.--
          (1) Permitting individual to serve on interim 
        basis.--For purposes of title 44, United States Code, 
        as amended by this Act, any individual who holds the 
        position of Superintendent of Documents as of the 
        effective date of this Act shall be deemed to meet the 
        qualifications for such position under such title, and 
        shall be permitted to remain in that position after the 
        effective date of this Act until the Director of the 
        Government Publishing Office appoints an individual to 
        serve as the Superintendent of Documents under section 
        1702 of such title, as amended by this Act. Nothing in 
        this paragraph shall be construed to prohibit the 
        Director from appointing such an individual as the 
        Superintendent of Documents under section 1702 of such 
        title, as amended by this Act.
          (2) Special rule on compensation.--If an individual 
        described in paragraph (1) serves as Superintendent of 
        Documents pursuant to the authority of such paragraph 
        after the effective date of this Act, the individual 
        shall receive compensation for such service after such 
        date at the same annual rate of compensation the 
        individual received as of the effective date of this 
        Act. If the Director of the Government Publishing 
        Office appoints the individual to serve as 
        Superintendent of Documents under section 1702 of title 
        44, United States Code, as amended by this Act, the 
        individual shall be compensated in accordance with such 
        section.
  (b) Transition for Existing Depository Libraries.--For 
purposes of chapter 17 of title 44, United States Code, as 
amended by this Act--
          (1) each institution which, as of the effective date 
        of this Act, is designated as a depository library 
        under chapter 19 of such title (as in effect prior to 
        such date) shall be deemed to have been designated as a 
        Federal Depository Library under chapter 17 of such 
        title on the effective date of this Act;
          (2) each institution which, as of the effective of 
        this Act, is designated as a selective depository 
        library under chapter 19 of such title (as in effect 
        prior to such date) shall be deemed to have been 
        designated as a Selective Depository Library under 
        chapter 17 of such title on the effective date of this 
        Act; and
          (3) each institution which, as of the effective date 
        of this Act, is serving a regional depository library 
        under chapter 19 of such title (as in effect prior to 
        such date) shall be deemed to have been designated as a 
        Regional Depository Library under chapter 17 of such 
        title on the effective date of this Act.

SEC. 4. GAO STUDY AND REVIEW OF IMPLEMENTATION OF CHANGES TO RULES 
                    GOVERNING PUBLIC ACCESS TO GOVERNMENT PUBLICATIONS.

  (a) Study.--The Comptroller General of the United States 
shall conduct a study on the implementation of chapter 17 of 
title 44, as amended by this Act. Such study shall include an 
analysis of--
          (1) the status of the implementation of such chapter;
          (2) the extent of compliance by offices of the 
        Federal government with the requirements of such 
        chapter;
          (3) the effectiveness of such chapter at meeting the 
        needs of the public and Federal Depository Libraries in 
        providing public access to government information; and
          (4) other related issues determined appropriate by 
        the Comptroller General.
  (b) Report.--Not later than 3 years after the date of the 
enactment of this Act, the Comptroller General of the United 
States shall submit to the Joint Committee on Printing a report 
on the study conducted under subsection (a).

SEC. 5. EFFECTIVE DATE.

  Except as otherwise provided, this Act and the amendments 
made by this Act shall apply with respect to the first fiscal 
year which begins after the date of the enactment of this Act 
and each succeeding fiscal year.
    The Chairman. This amendment makes a number of technical 
changes to clarify and strengthen the FDLP program. For 
purposes of time, each member has been provided with a copy of 
the amendment.
    Does any Member wish to be heard on the amendment in the 
nature of a substitute or wish to offer an amendment? If not 
the question, is on adopting the amendment.
    All those in favor of the amendment, say aye.
    All those opposed, say no.
    In the opinion of the chair, the ayes have it, and the 
amendment is agreed to.
    I move that the Committee favorably report H.R. 5305, the 
FDLP--oh, I should look at my notes better.
    Pursuant to Clause 2 of Rule 11, all Members are entitled 
to two additional calendar days to file such views in writing 
and signed by the member and file with the clerk of the 
Committee.
    I move that the Committee favorably report H.R. 5305, the 
FDLP Modernization Act of 2018 as amended. The question is on 
the motion.
    All those in favor, signify by saying aye.
    All those opposed, signify by saying no.
    In the opinion of the chair, the ayes have it and the 
motion is agreed to. Without objection, the motion to 
reconsider is laid on the table.
    Does any member wish to submit supplemental or minority 
views?
    Seeing none, I now call up H.R. 4631, the Access to 
Congressionally Mandated Reports Act. Without objection, the 
bill is considered read and the amendment in the nature of a 
substitute provided to each of you will serve as the base text 
and is considered open for amendment at any point.
    [The bill follows:]

          Amendment in the Nature of a Substitute to H.R. 4631


                         Offered by Mr. Harper


  Strike all after the enacting clause and insert the 
following:

SECTION 1. SHORT TITLE.

  This Act may be cited as the ``Access to Congressionally 
Mandated Reports Act''.

SEC. 2. DEFINITIONS.

  In this Act:
          (1) Congressionally mandated report.--The term 
        ``congressionally mandated report''--
                  (A) means a report that is required to be 
                submitted to either House of Congress or any 
                committee of Congress, or subcommittee thereof, 
                by a statute, resolution, or conference report 
                that accompanies legislation enacted into law; 
                and
                  (B) does not include a report required under 
                part B of subtitle II of title 36, United 
                States Code.
          (2) Director.--The term ``Director'' means the 
        Director of the Government Publishing Office.
          (3) Federal agency.--The term ``Federal agency'' has 
        the meaning given that term under section 102 of title 
        40, United States Code, but does not include the 
        Government Accountability Office.
          (4) Open format.--The term ``open format'' means a 
        file format for storing digital data based on an 
        underlying open standard that--
                  (A) is not encumbered by any restrictions 
                that would impede reuse; and
                  (B) is based on an underlying open data 
                standard that is maintained by a standards 
                organization.
          (5) Reports online portal.--The term ``reports online 
        portal'' means the online portal established under 
        section (3)(a).

SEC. 3. ESTABLISHMENT OF ONLINE PORTAL FOR CONGRESSIONALLY MANDATED 
                    REPORTS.

  (a) Requirement To Establish Online Portal.--
          (1) In general.--Not later than 1 year after the date 
        of enactment of this Act, the Director shall establish 
        and maintain an online portal accessible by the public 
        that allows the public to obtain electronic copies of 
        all congressionally mandated reports in one place. The 
        Director may publish other reports on the online 
        portal.
          (2) Existing functionality.--To the extent possible, 
        the Director shall meet the requirements under 
        paragraph (1) by using existing online portals and 
        functionality under the authority of the Director.
          (3) Consultation.--In carrying out this Act, the 
        Director shall consult with the Clerk of the House of 
        Representatives, the Secretary of the Senate, and the 
        Librarian of Congress regarding the requirements for 
        and maintenance of congressionally mandated reports on 
        the reports online portal.
  (b) Content and Function.--The Director shall ensure that the 
reports online portal includes the following:
          (1) Subject to subsection (c), with respect to each 
        congressionally mandated report, each of the following:
                  (A) A citation to the statute, conference 
                report, or resolution requiring the report.
                  (B) An electronic copy of the report, 
                including any transmittal letter associated 
                with the report, in an open format that is 
                platform independent and that is available to 
                the public without restrictions, including 
                restrictions that would impede the re-use of 
                the information in the report.
                  (C) The ability to retrieve a report, to the 
                extent practicable, through searches based on 
                each, and any combination, of the following:
                          (i) The title of the report.
                          (ii) The reporting Federal agency.
                          (iii) The date of publication.
                          (iv) Each congressional committee 
                        receiving the report, if applicable.
                          (v) The statute, resolution, or 
                        conference report requiring the report.
                          (vi) Subject tags.
                          (vii) A unique alphanumeric 
                        identifier for the report that is 
                        consistent across report editions.
                          (viii) The serial number, 
                        Superintendent of Documents number, or 
                        other identification number for the 
                        report, if applicable.
                          (ix) Key words.
                          (x) Full text search.
                          (xi) Any other relevant information 
                        specified by the Director.
                  (D) The date on which the report was required 
                to be submitted, and on which the report was 
                submitted, to the reports online portal.
                  (E) Access to the report not later than 30 
                calendar days after its submission to Congress.
                  (F) To the extent practicable, a permanent 
                means of accessing the report electronically.
          (2) A means for bulk download of all congressionally 
        mandated reports.
          (3) A means for downloading individual reports as the 
        result of a search.
          (4) An electronic means for the head of each Federal 
        agency to submit to the reports online portal each 
        congressionally mandated report of the agency, as 
        required by section 4.
          (5) In tabular form, a list of all congressionally 
        mandated reports that can be searched, sorted, and 
        downloaded by--
                  (A) reports submitted within the required 
                time;
                  (B) reports submitted after the date on which 
                such reports were required to be submitted; and
                  (C) reports not submitted.
  (c) Noncompliance by Federal Agencies.--
          (1) Reports not submitted.--If a Federal agency does 
        not submit a congressionally mandated report to the 
        Director, the Director shall to the extent 
        practicable--
                  (A) include on the reports online portal--
                          (i) the information required under 
                        clauses (i), (ii), (iv), and (v) of 
                        subsection (b)(1)(C); and
                          (ii) the date on which the report was 
                        required to be submitted; and
                  (B) include the congressionally mandated 
                report on the list described in subsection 
                (b)(5)(C).
          (2) Reports not in open format.--If a Federal agency 
        submits a congressionally mandated report that is not 
        in an open format, the Director shall include the 
        congressionally mandated report in another format on 
        the reports online portal.
  (d) Free Access.--The Director may not charge a fee, require 
registration, or impose any other limitation in exchange for 
access to the reports online portal.
  (e) Upgrade Capability.--The reports online portal shall be 
enhanced and updated as necessary to carry out the purposes of 
this Act.

SEC. 4. FEDERAL AGENCY RESPONSIBILITIES.

  (a) Submission of Electronic Copies of Reports.--Concurrently 
with the submission to Congress of each congressionally 
mandated report, the head of the Federal agency submitting the 
congressionally mandated report shall submit to the Director 
the information required under subparagraphs (A) through (D) of 
section 3(b)(1) with respect to the congressionally mandated 
report. Nothing in this Act shall relieve a Federal agency of 
any other requirement to publish the congressionally mandated 
report on the online portal of the Federal agency or otherwise 
submit the congressionally mandated report to Congress or 
specific committees of Congress, or subcommittees thereof.
  (b) Guidance.--Not later than 240 days after the date of 
enactment of this Act, the Director of the Office of Management 
and Budget, in consultation with the Director, shall issue 
guidance to agencies on the implementation of this Act.
  (c) Structure of Submitted Report Data.--The head of each 
Federal agency shall ensure that each congressionally mandated 
report submitted to the Director complies with the open format 
criteria established by the Director in the guidance issued 
under subsection (b).
  (d) Point of Contact.--The head of each Federal agency shall 
designate a point of contact for congressionally mandated 
report.
  (e) List of Reports.--As soon as practicable each calendar 
year (but not later than April 1), and on a rolling basis 
during the year if feasible, the Librarian of Congress shall 
submit to the Director a list of congressionally mandated 
reports from the previous calendar year, in consultation with 
the Clerk of the House of Representatives, which shall--
          (1) be provided in an open format;
          (2) include the information required under clauses 
        (i), (ii), (iv), (v) of section 3(b)(1)(C) for each 
        report;
          (3) include the frequency of the report;
          (4) include a unique alphanumeric identifier for the 
        report that is consistent across report editions;
          (5) include the date on which each report is required 
        to be submitted; and
          (6) be updated and provided to the Director, as 
        necessary.

SEC. 5. REMOVING AND ALTERING REPORTS.

  A report submitted to be published to the reports online 
portal may only be changed or removed, with the exception of 
technical changes, by the head of the Federal agency concerned 
if--
          (1) the head of the Federal agency consults with each 
        congressional committee to which the report is 
        submitted; and
          (2) Congress enacts a joint resolution authorizing 
        the changing or removal of the report.

SEC. 6. RELATIONSHIP TO THE FREEDOM OF INFORMATION ACT.

  (a) In General.--Nothing in this Act shall be construed to--
          (1) require the disclosure of information or records 
        that are exempt from public disclosure under section 
        552 of title 5, United States Code; or
          (2) to impose any affirmative duty on the Director to 
        review congressionally mandated reports submitted for 
        publication to the reports online portal for the 
        purpose of identifying and redacting such information 
        or records.
  (b) Redaction of Information.--The head of a Federal agency 
may redact information required to be disclosed under this Act 
if the information would be properly withheld from disclosure 
under section 552 of title 5, United States Code, and shall--
          (1) redact information required to be disclosed under 
        this Act if disclosure of such information is 
        prohibited by law;
          (2) redact information being withheld under this 
        subsection prior to submitting the information to the 
        Director;
          (3) redact only such information properly withheld 
        under this subsection from the submission of 
        information or from any congressionally mandated report 
        submitted under this Act;
          (4) identify where any such redaction is made in the 
        submission or report; and
          (5) identify the exemption under which each such 
        redaction is made.

SEC. 7. IMPLEMENTATION.

  Except as provided in section 4(b), this Act shall be 
implemented not later than 1 year after the date of enactment 
of this Act and shall apply with respect to congressionally 
mandated reports submitted to Congress on or after the date 
that is 1 year after such date of enactment.

      Amend the title so as to read: ``A bill to require the 
Director of the Government Publishing Office to establish and 
maintain an online portal accessible to the public that allows 
the public to obtain electronic copies of all congressionally 
mandated reports in one place, and for other purposes.''.
    The Chairman. This amendment will make a number of 
technical changes to Title 44 to clarify and strengthen 
transparency with respect to reports requested by Congress.
    Does any Member wish to be heard on the amendment in the 
nature of a substitute or wish to offer an amendment? If not, 
the question is on adopting the amendment.
    All those in favor of the amendment, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to.
    I now move the Committee favorably report H.R. 4631, the 
Access to Congressionally Mandated Reports Act as amended. The 
question is on the motion.
    All those in favor, signify by saying aye.
    All those opposed signify by saying no.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to. Without objection, the motion to 
reconsider is laid upon the table.
    Does any Member wish to submit supplemental or minority 
views?
    Pursuant to Clause 2 of Rule 11, all Members are entitled 
to two additional calendar days to file such views in writing 
and signed by the Member and file with the clerk of the 
Committee.
    For all the matters here today, I would ask unanimous 
consent that the staff be authorized to make technical and 
conforming changes, if necessary. Without objection, so 
ordered.
    That concludes today's markup.
    Without objection, the markup is adjourned.
    [Whereupon, at 11:15 a.m., the Committee proceeded to other 
business.]

                                  <all>
</pre></body></html>
